Opinion issued December 19, 2019.

In The

Court of Appeals:
For The

Jftrot diiotrtct of fKexao
NO. 01-18-00422-CR
AGUSTIN CALDERON, Appellant
V.
THE STATE OF TEXAS, Appellee

On Appeal from the 10th District Court
Galveston County, Texas
Trial Court Case No. 15CR3346

MEMORANDUM OPINION
A jury convicted appellant Agustin Calderon of the offense of capital murder.1
Because the State did not seek the death penalty, the trial court automatically

i

See Tex. Penal Code § 19.03(a)(7).

assessed appellant’s punishment at confinement for life.2 In a single issue on appeal,
appellant argues that the trial court erred in denying his motion to suppress his
statement to police because the State failed to prove that his waiver of his Miranda3
rights was done knowingly, intelligently, and voluntarily. Finding no reversible
error, we affirm the trial court’s judgment.
Background
Nancy Shuffleberger saw appellant running through her fenced-in backyard
around 9:45 one morning. When she confronted him, he apologized and raised his
hands in the air. After she confirmed that appellant spoke English, Shuffleberger
asked appellant if anyone was chasing him, and if he wanted her to call the police.
Appellant answered affirmatively. Appellant also told her several times that he
needed advice.
Officer Anders, who was wearing a body camera, and two other officers
answered Shuffleberger’s 9-1-1 call. The video captured by Officer Anders’s body
camera reflects that one officer interviewed the homeowner while Officer Anders
and the other officer searched appellant and questioned him. Appellant, who did not
have any identification with him, told Officer Anders that his name was “Cruz” and
he lived on Spruce Street. He also told the officer that he needed advice.

See Tex. Penal Code § 12.31(a)(2).
See Miranda v. Arizona, 384 U.S. 436 (1966).
2

Officer Anders asked appellant if he had been drinking or smoking anything
and appellant told him that he drank beer that morning. When asked why he was at
Shuffleberger’s home, appellant told Anders that he was running. Officer Anders
asked appellant who he was running from, but appellant’s response was inaudible.
Officer Anders also asked appellant if he had any mental disabilities. Appellant
responded that he did not. The officer told appellant that he was checking to see if
he was okay because he was “running around and hiding from apparently nothing.”
Appellant told Officer Anders that he needed help and Anders responded that
he could not help appellant without more information. After he confirmed that
appellant spoke “good English,” Officer Anders told appellant to talk to him and the
other officer and tell them what was going on. Appellant told Officer Anders that
people were after him, but he did not know why. Most of appellant’s statements to
the other officer, however, were inaudible. After speaking with appellant, the other
officer handcuffed him and placed him under arrest for public , intoxication.
Approximately ten seconds after appellant was arrested, Officer Anders heard
a call over his police radio that there was a “possible DOA” at “1215 Spruce.”
Officer Anders asked appellant where he lived, and after appellant responded,
Officer Anders told the arresting officer that was the “same area, the same spot.”
Officer Anders then drove to 1215 Spruce. According to his body camera
video, the drive took less than two minutes. When he arrived at the scene, Officer
3

Anders observed a female (later identified as the victim Stephanie Falcon) lying on
the living room floor of a downstairs apartment who appeared to be deceased.
Witnesses who were waiting outside the building told Officer Anders that Stephanie
and “Cruz” lived in the apartment where Stephanie’s body was found. After
speaking with the witnesses, Officer Anders told another officer at the scene that the
man he spoke to outside Shuffleberger’s home was named “Cruz” and that Cruz was
“really nervous” and appeared to be high or drunk. Officer Anders testified that he
believed that it was “highly likely” that the two locations and the two individuals
were going to be connected.
Appellant, who had been in police custody since 10:00 a.m., gave a videotaped
statement to the lead investigator, Detective Walton, at 5:15 p.m.
Detective Walton read appellant his Miranda rights from a form at the
beginning of the videotaped interview. He then asked appellant if he understood
what he had just heard; appellant did not answer. Detective Walton then read the
waiver portion of the form to appellant, handed appellant the form and a pen, and
told appellant to sign his name at the bottom. Instead of signing, appellant began
reading the form out loud to himself in English. A few moments later, appellant
asked Detective Walton, “So what is this for?” Detective Walton told appellant that
the rights that he had just read to appellant were listed on the form and that by signing
the form, appellant would be admitting that he understood those rights. Appellant
4

then starts talking to himself in Spanish. At that point, Detective Walton reiterated
that by signing the form, appellant would be acknowledging that he understands the
rights that were read to him. Appellant continued to read the form, sometimes out
loud in a muffled tone. Detective Walton asked appellant, “What is Stephanie to
you?”, but appellant ignored him and continued to read the form. Detective Walton
appeared to grow impatient, and told appellant, “Are you going to sign it and talk to
me and give me a statement about what is going on? It’s up to.you.” He later asked
appellant if he was going to sign the waiver and took the form out of appellant’s
hands and laid it on the table in front of appellant. “Here’s the pen, man. You can
make a decision whether you are gonna talk to me or not.” Appellant then asked
Detective Walton, “what is this about?” Walton told appellant that he wanted to
know what was going on between appellant and Stephanie.
Appellant started fidgeting in his chair and asked Walton to explain again
what the interview was about and if there were any charges. Walton told appellant
that he had not been charged with anything and that “[t]his has nothing to do with
charges.” Walton reiterated that he just wanted to know what had happened.
Appellant continued to stare at the form and either talk to himself or read the form
out loud under his breath. “You gonna sign it, or what, man?” Appellant began
reading the form out loud in English again. At that point, Detective Walton stated,

5

“you’re reading it, so you obviously understand what it says.” Appellant continued
to read the form.
Detective Walton told appellant it was not as difficult as he was making it,
and that it was “a simple paper, it’s a simple document.” “So either you are going to
sign and talk to me or you’re not. It’s not a big deal.” Appellant continued to read
the form and he signed the waiver about nine and a half minutes after the interview
began.
After appellant signed the waiver form, Detective Walton stated, “Tell me
about Stephanie. What is Stephanie to you?” Detective Walton then identified
himself and appellant for the record and stated that “this is in reference to a deceased
person at [appellant’s] residence.” Appellant told Detective Walton that he and
Stephanie lived together, she was pregnant, and he and Stephanie had been fighting
the night before. Less than fifteen minutes after he waived his rights, appellant
admitted to Detective Walton that he choked Stephanie two or three times with his
hands while they were on the couch in the living room. He also demonstrated how
he choked Stephanie and held her nose.4 According to appellant, Stephanie passed
out after he choked her, but she was fine. Early in the interview, appellant asked

At trial, the medical examiner testified that Stephanie was pregnant when she was
killed and that her cause of death was manual strangulation. He further testified that
Stephanie’s unborn child died when Stephanie died, and that the child’s cause of
death was asphyxia.
6

Walton if they could “do this tomorrow.” Appellant did not otherwise indicate that
he no longer wanted to talk to Walton, and he continued to talk to Walton for over
an hour. Appellant was subsequently charged with capital murder. See Tex. Penal
Code § 19.03(a)(7).
Appellant filed a motion to suppress his custodial statement. Detective Walton
was the only witness to testify at the pre-trial suppression hearing. The videotaped
interview and the written statutory warnings and waiver signed by appellant were
the only evidence admitted during the hearing. The trial court denied the motion.
At the suppression hearing, Detective Walton testified that he read appellant
the required warnings under Article 38.225 and that appellant read the waiver out
loud to himself in English, although he also spoke to himself in Spanish at some
points. Appellant eventually signed the waiver form. Detective Walton testified that
he never determined appellant’s education level or reading ability. He also testified
that he did not know whether English was appellant’s first or second language, but
he had spoken to Stephanie’s mother before the interview and she told him that
appellant spoke English. He also testified that it was clear to him that appellant could
read and understand English because appellant read the waiver out loud and in
English, and he signed the form. Walton testified that the interview was conducted
“a good length of time” after Stephanie’s body was found and that there was no
Tex. Code Crim. Proc. art. 38.22, § 3.
7

indication that appellant might be under the influence. According to Walton,
appellant did not smell of alcohol or have red, bloodshot, or glassy eyes or slurred
speech.
Walton denied interrupting appellant while he was reading the waiver form
and testified that, based on appellant’s behavior, he believed that appellant was
stalling. When asked about his statement to appellant that the waiver form was “a
simple paper, it’s a simple document,” Walton testified that he was not referring to
appellant’s constitutional rights as being simple. Walton testified that the matter was
simple because appellant could either speak with him, or not, and if appellant refused
to speak to Walton, the interview was over. Walton testified that appellant
understood his rights because he signed the form. Appellant signed the waiver nine
and a half minutes after the interview began.
Detective Walton offered similar testimony at trial. He also denied pressuring
appellant to provide a statement, promising him anything in return for a statement,
or denying appellant food, drink, water, or access to a bathroom. He also testified
that when he spoke to appellant, appellant was only a person of interest in the murder
investigation. Walton testified that he had trouble hearing appellant at times because
appellant would speak in a soft, muffled tone.
The video reflects that appellant never told Detective Walton that he did not
speak, read, or understand English. Appellant also never told Detective Walton that
8

he did not understand the statutory rights that Detective Walton had read to him, or
that he was having trouble comprehending anything that Detective Walton had said.
At no point during the interview did appellant tell Detective Walton that he only
understood Spanish or request the aid of an interpreter.
At trial, appellant testified in English without the aid of an interpreter and
answered all question asked of him in English. Appellant testified that he had been
smoking marijuana and drinking beer and vodka the night before Stephanie’s body
was discovered and that he took a shot of vodka when he woke up around 8:00-8:30
a.m. When he walked out of the bedroom, he saw Stephanie lying on the living room
floor. Appellant was scared because he did not know what had happened and he ran
to a nearby Valero store to call 9-1-1, but he did not make the call. He testified that
he knew the police would blame him for Stephanie’s death and he did not know what
to do. Appellant claimed that he saw two guys staring and pointing at him after he
left the Valero and he thought they were chasing him, so he decided to run directly
to the police station. He was running through Shuffleberger’s yard when she
confronted him and called 9-1-1.
As relevant here, appellant testified that he did not understand the rights he
was waiving when he first spoke to Detective Walton because he “was highly, highly
intoxicated” and, therefore, he did not have use of normal mental faculties. Appellant

9

testified that Detective Walton repeatedly interrupted him, prevented him from
reading the form, and badgered him into signing the form.
The jury convicted appellant of capital murder and this appeal followed.
Admission of Custodial Statement
In his sole issue, appellant argues that the trial court erred in denying the
motion to suppress his statement to police because the State failed to prove that he
waived his Miranda6 rights knowingly, intelligently, and voluntarily. Specifically,
appellant argues that the evidence demonstrates that he did not understand the waiver
form or the rights he would be forfeiting by signing the form because he was
intoxicated during the interview and English is not his first language. He further
contends that his waiver was not knowing or voluntary because Detective Walton
lied to him about the nature and purpose of the interview when he told appellant that
the waiver of rights had nothing to do with charges, and Detective Walton repeatedly
pressured him to sign the form.
A.

Standard of Review
We review a trial court’s denial of a motion to suppress for an abuse of

discretion and apply a bifurcated standard of review. Furr v. State, 499 S.W.3d 872,
877 (Tex. Crim. App. 2016). We afford almost complete deference to the trial court’s
determination of historical facts, especially the court’s determinations that are based

See Miranda, 384 U.S. at 479.
10

on the assessment of credibility and demeanor. Id.; Crain v. State, 315 S.W.3d 43,
48 (Tex. Crim. App. 2010). This same deferential standard of review “applies to a
trial court’s determination of historical facts [even] when that determination is based
on a videotape recording admitted into evidence at a suppression hearing.” State v.
Duran, 396 S.W.3d 563, 570 (Tex. Crim. App. 2013) (quoting Montanez v. State,
195 S.W.3d 101, 109 (Tex. Crim. App. 2006)).
We conduct a de novo review of mixed questions of law and fact that do not
hinge on determinations of credibility or demeanor. Brodnex v. State, 485 S.W.3d
432, 436 (Tex. Crim. App. 2016) (citing Crain, 315 S.W.3d at 48); see also Johnson
v. State, 414 S.W.3d 184, 192 (Tex. Crim. App. 2013) (stating that application of
legal principles to specific set of facts is issue of law that appellate courts review de
novo). When, as here, the trial court makes written fact findings, we determine
whether the evidence, when viewed in the light most favorable to the trial court’s
ruling, supports the fact findings. Johnson, 414 S.W.3d at 192. We will sustain the
trial court’s ruling if it is correct under any applicable theory of law. Furr, 499
S.W.3d at 877.
In determining whether a trial court’s decision is supported by the record, we
generally consider only evidence adduced at the suppression hearing because the
ruling was based on it rather than evidence introduced later. Rachal v. State, 917
S.W.2d 799, 809 (Tex. Crim. App. 1996). However, this general rule is inapplicable
11

where the suppression issue has been consensually relitigated by the parties during
the trial on the merits. Id. Here, the record reflects that part of the defense’s trial
strategy was to attack the voluntariness of appellant’s statement to Detective Walton.
Appellant challenged the voluntariness of his waiver through his trial testimony and
his counsel’s cross-examination of Detective Walton. Furthermore, the trial court
instructed the jury that it could not consider appellant’s confession unless it found
beyond a reasonable doubt that he gave it freely and voluntarily. Because the
suppression issue was relitigated by the parties during trial, we consider both the
evidence adduced at the suppression hearing and the evidence admitted at trial in
reviewing the trial court’s suppression ruling. See id.
B.

Applicable Law
The State has the burden of showing, by a preponderance of the evidence, that

a defendant knowingly, intelligently, and voluntarily waived his rights. Leza v. State,
351 S.W.3d 344, 349 (Tex. Crim. App. 2011). A waiver must be “voluntary in the
sense that it was the product of a free and deliberate choice rather than intimidation,
coercion, or deception” and the waiver must be made “with a full awareness both of
the nature of the right being abandoned and the consequences of the decision to
abandon it.” Id. at 349-50 (citations omitted). We determine voluntariness by
looking at the totality of the circumstances surrounding the making of the statement.
See Griffin v. State, 765 S.W.2d 422, 427 (Tex. Crim. App. 1989).
12

Next, “[i]t will suffice to render a waiver knowing and intelligent. . . that the
accused has been made aware, and fully comprehends, that he has the right to remain
silent in the face of police interrogation and to discontinue the dialogue at any time,
and that the consequence of his waiver is that his words may be used against him
later in a court of law.” Leza, 351 S.W.3d at 350.
A criminal defendant may argue that his statement was not freely and
voluntarily made—and, therefore, not admissible as evidence—under several
theories: (1) Texas Code of Criminal Procedure article 38.22, section 6, concerning
“general voluntariness”; (2) Miranda, as expanded by article 38.22, sections 2 and
3; or (3) the Due Process Clause. Oursbourn v. State, 259 S.W.3d 159, 169 (Tex.
Crim. App. 2008); see Tex. Code Crim. Proc. art. 38.22, §§ 2, 3, 6; Miranda v.
Arizona, 384 U.S. 436, 444 (1966) (holding that statements of accused that are
products of custodial interrogation may not be used unless, prior to questioning,
accused is warned of certain rights and accused waives those rights, knowingly,
intelligently, and voluntarily). “A statement that is involuntary as a matter of
constitutional law is also involuntary under Article 38.22, but the converse need not
be true.” Oursbourn, 259 S.W.3d at 169 (internal citations omitted).
Under federal law, a statement is involuntary “only when there is police
overreaching.” Id.; see also Colorado v. Connelly, 479 U.S. 157, 170 (1986). Absent
police misconduct causally related to the statement, there is no deprivation of due
13

process of law by a state actor and therefore no violation of the Due Process Clause.
Oursbourn, 259 S.W.3d at 170 (citing Connelly, 479 U.S. at 164); Umana v. State,
447 S.W.3d 346, 350 (Tex. App.—Houston [14th Dist.] 2014, pet. ref d). Similarly,
Miranda only protects against government coercion to surrender Fifth Amendment
rights. Oursbourn, 259 S.W.3d at 170 (citing Connelly, 479 U.S. at 170); Umana,
447 S.W.3d at 350. Thus, due process claims, and Miranda claims of involuntariness
involve an objective assessment of police behavior. Oursbourn, 259 S.W.3d at 171;
Umana, 447 S.W.3d at 350.
Claims of involuntariness based on the defendant’s state of mind when
making a statement to police are “to be resolved by state laws governing the
admission of evidence.” Oursbourn, 259 S.W.3d at 171 (quoting Connelly, 479 U.S.
at 170). In Texas, that law is article 38.22, the Texas Confession Statute. Oursbourn,
259 S.W.3d at 171; Umana, 447 S.W.3d at 350. Under Code of Criminal Procedure
article 38.22, section 3(a)(2), before an oral recorded statement may be admitted into
evidence, the State must show, inter alia, that the accused was properly admonished
about his rights and he knowingly, intelligently, and voluntarily waived those rights.
Tex. Code Crim. Proc. art. 38.22, § 3(a)(2). Claims of involuntariness under article
38.22 can be predicated on both police overreaching and on the defendant’s state of
mind. See Oursbourn, 259 S.W.3d at 172; Allen v. State, 479 S.W.3d 341, 350 (Tex.
App.—El Paso 2015, no pet). The question to be asked is “[d]oes it appear—as
14

Article 38.21 requires—that the statement was freely and voluntarily made without
compulsion or persuasion?” Oursbourn, 259 S.W.3d at 172; see Allen, 479 S.W.3d
at 350. Intoxication is one factor that courts can consider in determining whether a
statement was voluntary. Oursbourn, 259 S.W.3d at 173; Allen, 479 S.W.3d at 350.
C.

Discussion
Appellant argues that his waiver was neither knowing nor voluntary because

the evidence demonstrates that he did not understand the waiver form or the rights
he would be forfeiting by signing the form because he was intoxicated during the
interview and English is not his first language. Appellant further argues that
Detective Walton pressured him to sign the form and he lied to appellant about the
nature and purpose of the interview when he told him that the waiver of rights had
nothing to do with charges.
To the extent that appellant is arguing that his statement was involuntary under
federal law due to his intoxication and his English language proficiency, such
arguments are foreclosed as a matter of law because neither circumstance is
attributable to any police misconduct. See Leza, 351 S.W.3d at 351. “[T]he Fifth
Amendment privilege is not concerned ‘with moral and psychological pressures to
confess emanating from sources other than official coercion.’” Connelly, 479 U.S.
at 170. If appellant’s mental status, including his intoxication, alone impelled him to
confess, that is of no constitutional consequence. See id.
15

A claim that a waiver of the statutory rights enumerated in Article 38.22,
however, “need not be predicated on police overreaching.” Leza, 351 S.W.3d at 353
(quoting Oursbourn, 259 S.W.3d at 172). Circumstances, such as intoxication, that
are unattributable to the police but which adversely impact an accused’s ability to
resist reasonable police requests that he waive his statutory rights are “factors” in
the voluntariness inquiry. Leza, 351 S.W.3d at 353. However, they “are usually not
enough, by themselves, to render a statement inadmissible under Article 38.22 [.]”
Leza, 351 S.W.3d at 353 (quoting Oursbourn, 259 S.W.3d at 173). Appellant’s
alleged intoxication and English proficiency are also relevant with respect to
whether this Miranda waiver was knowing and intelligent and therefore inadmissible
under either federal or state law. See Leza, 351 S.W.3d at 352-53.
Detective Walton testified that Stephanie’s mother informed him before the
interview that appellant spoke English. Walton also testified that he believed that
appellant could read and understand English because appellant read the waiver out
loud in English. The trial court found Walton’s testimony to be credible. The
videotape reflects that appellant read portions of the waiver form out loud and in
English. Although appellant briefly spoke to himself in Spanish, the entire interview
was conducted in English, and appellant never asked for a translator, or otherwise
indicated that he did not understand Detective Walton’s questions. Notably,
appellant also testified at trial in English without the aid of an interpreter and he
16

answered all question asked of him in English. To the extent that there are conflicts
in the evidence with respect to appellant’s ability to read and understand English, it
was within the trial court’s province to resolve any such conflicts.
Relying on the videotape7 of his interaction with Officer Anders, appellant
argues that his impaired mental state should have been apparent to Detective Walton
because Officer Anders realized that appellant was impaired within a minute of
talking to him, as evidenced by the fact that he asked appellant if he had been
drinking or smoking anything or if he had any mental disabilities. The record reflects
that appellant spoke to Officer Anders around 9:45 a.m. but appellant did not meet
with Detective Walton until 5:00 p.m. that afternoon. Detective Walton testified that
he did not believe appellant was intoxicated or see any signs that appellant was
intoxicated when he interviewed him. The trial court found Walton’s testimony to
be credible. It was within the trial court’s province to resolve any conflicts in the
evidence.
We further note that the videotaped statement is also evidence of appellant’s
state of mind at the time of the interview. The trial court viewed the video and from
it was able to assess appellant’s state of mind when he signed the waiver, including
the degree to which appellant appeared to be intoxicated and appellant’s ability to

Officer Anders did not testify at the suppression hearing and the video taken by his
body camera was not admitted into evidence during the hearing.
17

read and comprehend English. See Umana, 447 S.W.3d at 357. We defer to the trial
court’s resolution of these historical facts.
With respect to Detective Walton’s allegedly coercive conduct, the record
reflects that Detective Walton read appellant his Miranda rights at the beginning of
the videotaped interview and appellant signed the form approximately nine minutes
later. The entire interview lasted approximately one and a half hours. Appellant was
never handcuffed or threatened, and no promises were made to induce him to talk to
Detective Walton. Appellant was not denied food, water, or bathroom breaks, and
he was advised of his rights prior to signing the form. See Schneckloth v. Bustamonte,
412 U.S. 218, 226 (1973) (observing that in determining whether defendant’s will
was overborne in particular case, courts should consider circumstances of
interrogation, including detention’s length, repeated and prolonged nature of
questioning, and whether physical punishment, such as deprivation of food or sleep,
occurred).
Appellant contends that Detective Walton repeatedly interrupted him while
he was trying to read the form, he did not allow appellant to read the entire form,
and that he only signed the form because Detective Walton kept telling him to sign
it. Walton, however, testified that appellant appeared to understand the form because
appellant had read it out loud and in English and that he believed that appellant was
just stalling. He admitted at trial, however, that appellant’s conduct could also be
18

interpreted as “trying to read and understand the document and make a decision.”
Walton denied interrupting appellant and testified that appellant was able to read the
entire form before he signed it. Walton also denied pressuring appellant to waive his
rights. The trial court found Detective Walton credible. It was within the trial court’s
province to resolve conflicting testimony.
The videotaped statement is also evidence of Detective Walton’s conduct
during the interview and his interactions with appellant. The trial court viewed the
video and from it was able to assess the extent to which Detective Walton pressured
or otherwise coerced appellant to sign the form. See JJmana, 447 S. W.3d at 357. We
further note that none of the alleged misconduct in this case rises to the level of
police overreaching that courts have held sufficient to render a suspect’s statement
involuntary. See Oursbourn, 259 S.W.3d at 170—71 (listing examples of police
overreaching); see also Allen, 479 S.W.3d at 351 (citing to Oursbourn and stating
that “police overreaching that renders a statement involuntary and inadmissible
involves extreme fact scenarios”).
With respect to Detective Walton’s alleged deception, the record reflects that
Detective Walton read appellant his Miranda rights at the beginning of the video­
taped interview, and this included the warning that “anything you say can be used as
evidence against you in court.” Although Walton told appellant before he signed the
waiver that he had not been charged with anything and that “[t]his has nothing to do
19

with charges,” Detective Walton’s statement, alone, is insufficient, as a matter of
law, to render appellant’s waiver either involuntary or insufficiently informed. See
Leza, 351 S.W.3d at 350; see Colorado v. Spring, 479 U.S. 564, 577 (1987) (“This
Court’s holding in Miranda specifically required that the police inform a criminal
suspect that he has the right to remain silent and that anything he says may be used
against him. There is no qualification of this broad and explicit warning.”) (emphasis
in original); Murphy v. State, 100 S.W.3d 317, 322 (Tex. App.—San Antonio 2002,
pet. ref d) (stating that it is “not critical that a suspect know the charges to which he
is susceptible” and “[s]o long as the suspect understands the basic principles that he
has the right to remain silent and whatever he says can be used as evidence against
him, his waiver is constitutionally adequate”). This court has found that similar
police conduct did not violate a defendant’s due process rights. See generally Snow
v. State, 721 S.W.2d 943, 946 (Tex. App.—Houston [1st Dist.] 1986, no pet.)
(holding police officer’s statement to defendant that he “was being interviewed only
as a witness” did not render defendant’s statement involuntary).
Applying the required deferential standard of review, we conclude that the
totality of the circumstances demonstrates, by a preponderance of the evidence,
appellant’s waiver of his rights was voluntarily, knowingly, and intelligently made
with full awareness of the nature of those rights and the consequences of waiving

20

them. See Umana, 447 S.W.3d at 357-58. Accordingly, we hold that the trial court
did not abuse its discretion in denying appellant’s motion to suppress.
We overrule appellant’s sole issue.
Conclusion
We affirm the trial court’s judgment.

Russell Lloyd
Justice
Panel consists of Justices Lloyd, Kelly, and Countiss.
Do Not Publish. Tex. R. App. P. 47.2(b).

21

OFFICIAL NOTICE FROM COURT OF CRIMINAL APPEALS OF TEXAS
P.O. BOX 12308, CAPITOL STATION, AUSTIN, TEXAS 7871 1

3/19/2020

ribc

i

COA No. 01-18-00422-CR
CALDERON, AGUSTIN
N05CR334j6
PD-0040-20
Dn this day, the Appellant's Pro Se. petition for discretionary review has been
efused.
Deana Williamson, Clerk
STATE PROSECUTING ATTORNEY
STACEY SOULE
P. O. BOX 13046
AUSTIN, TX 78711
* DELIVERED VIA E-MAIL *

OFFICIAL NOTICE FROM COURT OF CRIMINAL APPEALS OF TEXAS nun, u\jr i
P.0. BOX 12308, CAPITOL STATION, AUSTIN, TEXAS 78711

3/19/2020

COA No. 01-18-00422-CR
TiiyCt No.tl5CR3346
CALDERON, AGUSTIN
PD-0040-20
3n this day, the Appellant's Pro Se. petition- for discretionary review has been
•efused.
Deana Williamson, Clerk
DISTRICT ATTORNEY GALVESTON COUNTY
JACK ROADY
600 59TH STREET SUITE 1001
GALVESTON, TX 77551
* DELIVERED VIA E-MAIL *

OFFICIAL NOTICE FROM COURT OF CRIMINAL APPEALS OF TEXAS
P.0. BOX 12308, CAPITOL STATION, AUSTIN, TEXAS 78711

3/19/2020

r i lc ujr i

COA No. 01-18-00422-CR
Tr,*Ct. N 9^/5C R3*346
CALDERON, AGUSTIN
PD-0040-20
Dn this day, the Appellant's Pro Se^petjtion for discretionary review has been
•eftjsed.
Deana Williamson, Clerk
1ST COURT OF APPEALS CLERK
CHRISTOPHER A. PRINE
301 FANNIN
HOUSTON, TX 77002-7006
* DELIVERED VIA E-MAIL *

OFFICIAL NOTICE FROM COURT OF CRIMINAL APPEALS OF TEXAS riLD v_wr i
P.O. BOX 12308, CAPITOL STATION, AUSTIN, TEXAS 78711

3/19/2020
COA No. 01-18-00422-CR
Trjct. Mo^cW346
CALDERON, AGUSTIN
PD-0040-20
Dn this day, the Appellant's Rro Se^petition for discretionary review has been
-efused.
Deana Williamson, Clerk
AGUSTIN CALDERON
EASTHAM UNIT - TDC # 2200225
2665 PRISON ROAD #1
LOVELADY, TX 75851

